                              INDEPENDENT ACCOUNTANT’S REPORT
                             ON APPLYING AGREED-UPON PROCEDURES


March 28, 2008

To the Audit and Review Committee of the Board of Regents:


Cotton & Company LLP has performed the procedures enumerated below, which were agreed to by the
Smithsonian Institution Office of the Inspector General solely to assist you in determining if travel, office,
entertainment, fundraising, and other expenditures incurred by the former Secretary of the Smithsonian
were reasonable in the context of a business expense related to the Smithsonian mission. The
Smithsonian Chief Financial Officer (CFO) was responsible for preparing the Schedule of Expenditures
of the Office of the Secretary.

We conducted this agreed-upon procedures engagement in accordance with attestation standards
established by the American Institute of Certified Public Accountants. The sufficiency of these
procedures is solely the responsibility of those parties specified in this report. Consequently, we make no
representation regarding the sufficiency of procedures described below either for the purpose for which
this report has been requested or for any other purpose.

OBJECTIVES

The objectives of the engagement were as follows:

1.      Review reconciliation of the Schedule of Expenditures for each fiscal year to the year-end general
        ledger, identifying the accounts included in the Schedule and any adjustments to those accounts.

2.      Test 50 transactions from similar accounts not included on the Schedule of Expenditures to
        determine if those expenditures should have been included on the Schedule.

3.      Determine if transactions included on the Schedule of Expenditures were properly accounted for.

4.      Determine if transactions included on the Schedule of Expenditures were valid business expenses
        related to the Smithsonian mission or not incurred in accordance with Smithsonian policies and
        guidance.


BACKGROUND AND SCOPE

The Audit and Review Committee of the Board of Regents requested an independent third-party review
of the former Secretary’s expenditures. The Smithsonian contracted with Cotton & Company to test the
                                                   1
Schedule of Expenditures for Fiscal Years (FY) 2006 and 2007, prepared by the Smithsonian’s Chief
Financial Officer (CFO). The Schedule of Expenditures does not include compensation paid to the
Secretary during that period.

The Secretary resigned from the Smithsonian on March 27, 2007. The Schedule of Expenditures
represents expenses incurred by the former Secretary during FY 2006 and 2007. The Secretary’s FY
2006 expenditures were charged on the Smithsonian’s accounting records to Department 110000, Office
of the Secretary. In FY 2007, the Smithsonian established Department 112000, to record only
expenditures on behalf of or to the Secretary. All of the Secretary’s FY 2007 expenditures on the
Schedule were charged to Department 112000.

To meet the requirements of this agreed-upon procedures engagement, Cotton & Company reviewed
schedules prepared by the Smithsonian CFO as well as supporting documentation. In addition, we
reviewed policies and procedures, references, handbooks, and memorandums provided by the
Smithsonian as guidance to assist us in addressing the agreed-upon procedures. A comprehensive list of
policies and guidance is provided in Appendix A. We provided periodic status updates to the IG and
Smithsonian staff as well as the draft report documenting agreed-upon procedures results.

The Smithsonian identified 202 transactions totaling $217,095 in the Schedule of Expenditures. The
Smithsonian did not include expenses of $685,298, charged to Department 110000 in FY 2006 and 2007,
in the Schedule because these were not expenditures made on behalf of or to the Secretary. We tested the
Secretary’s expenditures totaling $217,095, as well as a sample of excluded expenditures totaling
$233,635. Documentation provided to support these expenditures included Citibank statements, vendor
invoices, receipts, itineraries, and expense vouchers.

AGREED-UPON PROCEDURES AND RESULTS

A-1. Trace transactions for each fiscal year from the Schedule of Expenditures to the general
ledger. Identify all Office of the Secretary expense accounts and/or transactions that are not
included in the Schedule of Expenditures.

We obtained the Smithsonian’s reconciliations of the Schedule of Expenditures to its general ledger for
FY 2006 and 2007, and traced all amounts to these records. We identified Office of the Secretary
expenses of $685,298 that were not included in the Schedule of Expenditures because these were not
expenditures made on behalf of or to the Secretary.

A-2. Trace 50 expenditure transactions that were not included in the Schedule of Expenditures,
to source documentation and identify any transactions that were made on behalf of, or to the
Secretary.

From the universe of excluded Office of the Secretary expenditures, we selected 50 transactions totaling
$233,635. We tested these transactions to source documents. We did not identify any transactions made
on behalf of or to the Secretary.

A-3. Trace all expenditures reported on the Schedule of Expenditures to source documentation
and determine if expenditures were properly accounted for. Document all exceptions.

The Schedule of Expenditures included $217,095 of the former Secretary’s expenditures incurred from
October 1, 2005, through August 1, 2007. We traced these transactions to source documentation. The
Smithsonian could not provide sufficient source documentation to support $961 of delivery expenses for

                                                    2
which there were credit card statements, but not receipts. There was thus not enough evidence to
substantiate the business purpose and validity of these expenses.

A-4. Review supporting documentation for all transactions and identify expenses not fulfilling
the Smithsonian mission or not incurred in accordance with Smithsonian policies and guidance
provided by Smithsonian staff. Document all exceptions.

We identified expenditures of $7,529 that did not appear necessary to fulfill the Smithsonian mission or
were not incurred within limits prescribed by Smithsonian policies. We therefore identified these
expenditures as unauthorized. Smithsonian policies and guidance provided to us are identified in
Appendix A. Detail for these expenditures and the reason why each was identified as unauthorized are
provided in Appendix B.

B-1.    Obtain a management representation letter from Smithsonian management to confirm to
the best of their knowledge that representations were accurate and pertained to the period under
review.

We obtained a management representation letter from current Smithsonian management. We did not
obtain management representations from the Secretary because he is no longer employed at the
Smithsonian.

We were not engaged to and did not conduct an examination, the objective of which would be the
expression of opinions on the schedules described in the first paragraph. Accordingly, we do not express
such opinions. Had we performed additional procedures, other matters might have come to our attention
that would have been reported to you. This report is intended solely for the information and use of the
Office of the Inspector General and the Smithsonian, and is not intended to be and should not be used by
anyone other than these specified parties.

COTTON & COMPANY LLP



Sam Hadley, CPA, CGFM
Partner




                                                    3
                                    APPENDIX A
                   REFERENCE MATERIAL AND GUIDANCE PROVIDED BY THE
                              SMITHSONIAN INSTITUTION


Use of Trust Funds for Representational and Special Event Expenses, FY 2005 401 Allocation
Memorandum

Smithsonian Directive (SD) 312, Travel, May 23, 2005

Smithsonian Institution Travel Handbook, May 23, 2005




                                                  4
                         APPENDIX B
         SCHEDULE OF UNAUTHORIZED TRANSACTIONS



Fiscal                        Voucher Exception
Year             Vendor         I.D.   Amount     Notes
2006      Lawrence M. Small   00262252      $60    A
2006      Lawrence M. Small   00272415        5    A
2007      Citibank            00341485       68    A
2007      Citibank            00364101        7    A
2006      Lawrence M. Small   00262252      138    B
2006      Citibank            00270226      115    B
2006      Petty Cash          00271993       70    B
2006      Citibank            00276197      367    B
2006      Citibank            00276197      304    B
2006      Citibank            00282148      121    B
2006      Lawrence M. Small   00283768      133    B
2006      Petty Cash          00283916      273    B
2006      Citibank            00289010      119    B
2006      Petty Cash          00300894      152    B
2006      Citibank            00301476      318    B
2006      Citibank            00301476      952    B
2006      Citibank            00315306      289    B
2006      Citibank            00315306      121    B
2006      Citibank            00322002      242    B
2006      Lawrence M. Small   00323666       16    B
2006      Citibank            00325852       32    B
2007      Citibank            00341485      185    B
2007      Citibank            00357276      101    B
2006      Lawrence M. Small   00268574    3,000    C
2007      Lawrence M. Small   00360860      340    D

                                         $7,529




                              5
                                     APPENDIX B
                   NOTES TO SCHEDULE OF UNAUTHORIZED TRANSACTIONS


A.   Costs of alcoholic beverages served at meals hosted by the Secretary were paid out of the 401
     Fund, as was a hotel room service charge for an alcoholic beverage while he was on travel. The
     Use of Trust Funds for Representational and Special Event Expenses (updated December 1, 2004)
     states that the 401 Fund cannot be used for alcoholic beverages.

B.   The Secretary purchased various gifts (such as flowers, plants, ammonite, and framed documents)
     for Smithsonian employees, donors, and others. These gifts were charged against 401 and 402
     Funds. The Use of Trust Funds for Representational and Special Event Expenses states that trust
     funds cannot be used for gifts for any purpose for Smithsonian staff, volunteers, donors, etc.
     Smithsonian representatives stated that a $101 flower arrangement sent to thank a donor (2007
     Citibank #00357276) was a fundraising expenditure. We included this cost in Schedule B,
     however, because we could find no policy exception to authorize fundraising gifts.

     The Secretary also purchased a framed picture ($367, 2006 Citibank #00276197) to present as a
     gift to the President of Panama. Smithsonian representatives stated that the Use of Trust Funds
     policy does not cover gifts given to visiting dignitaries, and that these charges are commonly
     allowed with Federal funding. Again, we could find no policy exception to authorize gifts to
     dignitaries, so the cost is included in Schedule B.

C.   The Secretary and his spouse accompanied the Smithsonian National Board on a tour of India in
     March 2006. The Secretary paid the tour company $53,000 with his personal credit card, and was
     reimbursed by the Smithsonian. The tour company subsequently credited the Secretary’s card
     $3,000 to refund an overpayment. The Smithsonian, however, could not provide any evidence
     that the Secretary repaid these funds to the Smithsonian. In addition, Smithsonian travel policies
     require that employees use Government travel cards for travel expenses.

D.   The Secretary claimed actual lodging and meals for his travel. Smithsonian travel policies state
     that the Smithsonian follows the Federal Travel Regulations (FTR). Smithsonian travel policies
     permit travelers reimbursement of actual expenses up to 300 percent of the per diem rate (the
     maximum allowed by the FTR, paragraph §301-11.303). The Secretary’s lodging for two nights
     in Los Angeles, California (March 2007) was $500 per night; 300% of the FTR lodging for that
     locality was $330. We classified the $340 difference as unauthorized.




                                                 6
